Audit of FDIC’s Personnel Security Program

(Report No. 04-016, March 16, 2004)

Summary

This report presents the results of a review by International Business Machines (IBM) Business
Consulting Services (hereafter referred to as IBM), an independent professional services firm
engaged by the Office of Inspector General (OIG) to support its efforts to satisfy reporting
requirements related to the Federal Information Security Management Act of 2002.

The objective of the review was to determine whether the FDIC has established and implemented
effective controls over its personnel security program. The scope of the review focused on
FDIC’s personnel security program for employees. Audit work relating to FDIC’s personnel
security program for contractors was limited to gaining an understanding of the program.
IBM concluded that the FDIC’s Division of Administration (DOA) has made improvements in
the Corporation’s personnel security program, but additiona l work is needed to strengthen
controls over data used to manage the program.

Recommendations

IBM made multiple recommendations to the Director, DOA, to improve the accuracy of the data
used to manage the FDIC’s personnel security program.

Management Response

DOA’s response adequately addressed all the conditions discussed in the report.

This report addresses issues associated with information security. Accordingly, we have
not made, nor do we intend to make, public release of the specific contents of the report.
